                       ort




  ACCOUNTING PROCEDURES AT DEFENSE FINANCE AND
ACCOUNTING SERVICE OPERATING LOCATION NORFOLK AND
           THE NORFOLK NAVAL SHIPYARD


Report Number 98-192                       August 25, 1998




             Office of the Inspector General
                 Department of Defense
  Additional Information and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DOD, Home Page at: www.dodig.osd.mil.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support Directorate
  at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
  can also be mailed to:

                    OAIG-AUD (ATT’N: APTS Audit Suggestions)
                    Inspector General, Department of Defense
                    400 Army Navy Drive (Room 801)
                    Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms

DBOF                Defense Business Operations Fund
DFAS                Defense Finance and Accounting Service
DITSO               Defense Information Technology Services Office
FM&C                Financial Management and Comptroller
GAO                 Government Accounting Office
IRS                 Internal Revenue Service
NAS                 Naval Audit Service
NAVSEA              Naval Sea Systems Command
NNSY                Norfolk Naval Shipyard
OPLOC               Operating Location
SYMIS               Shipyard Management Information System
                              INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202




                                                                       August 25, 1998

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               COMMANDER, NAVAL SEA SYSTEMS COMMAND


SUBJECT: Audit Report on Accounting Procedures at Defense Finance and
         Accounting Service Operating Location Norfolk and the Norfolk Naval
         Shipyard (Report No. 98 192)


        We are providing this report for information and use. The audit was performed
in response to allegations reported to the Defense Hotline. Management comments
were considered in preparing this report. Comments were received from the Under
Secretary of the Navy (Financial Management and Comptroller) and Director, Defense
Finance and Accounting Service.

        DOD Directive 7650.3 requires that all recommendation be resolved promptly.
The Defense Finance and Accounting Service comments were partially responsive. We
request additional comments on Recommendation B.2.a. by October 23, 1998.

        We appreciate the courtesies extended to the audit staff. Questions on
the audit should be directed to Mr. Richard B. Bird, Audit Program Director, at
 (703) 604-9175 (DSN 664-9175, e-mail rbird@dodig.osd.mil) or Mr. Joel K. Chaney,
Audit Project Manager, at (2 16) 5226091, extension 235 (DSN 580-6091, e-mail
jchaney@dodig.osd.mil).     See Appendix D for the report distribution. The audit team
members are listed inside the back cover.




                                        David K. Steensma
                                 Deputy Assistant Inspector General
                                           for Auditing
                           Office of the Inspector General, DOD

Report No. 98-192                                                      August 25,199s
    Project No. 7FI-8010




    Accounting Procedures at Defense Finance and Accounting Service
       Operating Location Norfolk and the Norfolk Naval Shipyard

                                  Executive Summary

Introduction. The audit was conducted in response to allegations made to the Defense
Hotline. The allegations addressed both accounting and personnel issues at the Defense
Finance and Accounting Service (DFAS) Operating Location Norfolk, Norfolk,
Virginia, and the Norfolk Naval Shipyard. The complainant alleged that management at
Operating Location Norfolk did not fully disclose pertinent accounting data in the
FY 1995 Norfolk Naval Shipyard’s Financial and Operating Statements and as a result
the accounting data were misrepresented. The complainant also alleged that
management controls over Norfolk Naval Shipyard’s accounting operations were
inadequate. In FY 1995, the Norfolk Naval Shipyard reported assets of $428.8 million,
revenues of $602.4 million, and net revenues of $103.7 million in its Financial and
Operating Statements. In FY 1996, assets were reported at $413.3 million, revenues at
$680 million, and net revenues at $34.1 million.

In December 1996, the Under Secretary of Defense (Comptroller) announced that the
Defense Business Operations Fund would be realigned into separate Defense Working
Capital Funds. The realignment does not affect the issues discussed in this report.

Audit Objectives. The primary audit objective was to determine whether irregularities
in accounting procedures existed at the Operating Location Norfolk and the Norfolk
Naval Shipyard. In addition, we were to evaluate the management controls associated
with the accounting procedures. The allegations to the Defense Hotline addressed both
accounting and personnel issues. Our review focused on the accounting issues; the U.S.
Off& of Special Counsel is addressing the personnel issues relating to adverse actions.
Specifically, our objectives were to determine whether the Operating Location Norfolk
and the Norfolk Naval Shipyard consistently and accurately accounted for the results of
operations and adequately disclosed accounting data in the financial statements.

Audit Results. The Operating Location Norfolk recorded journal vouchers reflecting
erroneous and unsupported gains in the Norfolk Naval Shipyard’s general ledgers
without obtaining or analyzing supporting documentation for these journal vouchers.
The Norfolk Naval Shipyard develo ed the journal vouchers to improve its financial
position by improperly recognizing s 13.3 million of variance gains on its FY 1995
financial statements. The variance gains were recognized although customer orders had
not been completed and fti bills had not been issued at the end of FY 1995. Personnel
at the Norfolk Naval Shipyard said the financial statements were adjusted in response to
the Naval Sea Systems Command’s emphasis of meeting its FY 1995 net revenue goal.
The journal vouchers resulted in net revenue of $103.7 million, reported in the FY 1995
financial statements. The net revenue was overstated by $13.3 million (Finding A).

The Norfolk Naval Shipyard used inappropriate revenue recognition procedures during
FYs 1995 and 1996. Those procedures did not implement accounting principles
established in DOD Regulation 7000.14-R (the Regulation) , the “DOD Financial
Management Regulation, * and were not consistent with the procedures of other Naval
shipyards. As a result, the Financial and Operating Statements of the Norfolk Naval
Shipyard for FYs 1995 and 1996 were not comparable to the statements of other
shipyards, and the results of operations were incorrect (Finding B).

In September 1996, the Norfolk Naval Shipyard accrued liabilities for materials and
contractual services and charged the costs to customer orders, although the materials and
services were not provided on the customer orders. As a result, the Norfolk Naval
Shipyard prematurely billed customers $2.5 million in October 1996 for work that had
not been performed by September 30, 1996. In most cases, the materials and services
were not provided on the customer orders until early 1997 (Finding C).

The findings substantiated allegations made to the Defense Hotline. We also partially
substantiated an allegation concerning a $10 million overpayment made by the Norfolk
Naval Shipyard to the Internal Revenue Service. See Appendix B for details of the
allegations and audit results.

Summary of Recommendations.          We recommend that the Commander, Naval Sea
Systems Command, investigate the improper recognition of revenue and initiate
appropriate disciplinary action, if warranted; and establish procedures to ensure that the
Naval Shipyard accountiug methods are consistent with other Naval shipyards and
compliant with the accounting principles established in the Regulation. We recommend
that the Director, DFAS, provide training to the Operating Location Norfolk personnel to
ensure they are knowledgeable in shipyard accounting operations and DOD accounting
procedures, and issue and enforce guidance defining the responsibilities of the DFAS
Operating Location Norfolk. We also recommend that the Director, DFAS, direct the
DFAS Operating Location Norfolk to ensure their customers comply with the Regulation
and disclose deviations from the Regulation. We recommend that the Commander,
Norfolk Naval Shipyard, strengthen controls over the accrual of contract costs and the
charging of materials to customer orders.

Management Comments. The Navy agreed to investigate the improper recognition of
revenue at Norfolk Naval Shipyard and initiate appropriate disciplinary action. DFAS
developed a formal plan which includes training for Operating Location Norfolk
personnel in shipyard accounting. DFAS Cleveland will issue guidance requiring
Operating Location Norfolk to obtain and understand supporting documentation for all
journal vouchers processed; assess the accuracy of the financial dam received; research
significant fluctuations in account balances; and footnote any deviations from accounting
policy on its financial statements. The Navy stated it will ensure consistent application
of its revenue recognition method throughout its Naval shipyard activities and has
modified the Shipyard Management Information System to recognize revenue
appropriately. In FY 1998, Naval Sea Systems Command will issue further guidance to
the Naval Shipyard Activity as appropriate. DFAS stated it has a responsibility to
review and analyze data provided by its customers and advise its customers of known
noncompliance issues. However, DFAS also stated it is not appropriate for DFAS to
review the financial operations of its customers. Norfolk Naval Shipyard provided
training to reiterate proper accrual accounting procedures. See Part I for a complete
discussion of management comments and Part III for the complete text of management
comments.

Audit Response. The DFAS Operating Location Norfolk was not performing any
reviews or analysis of the shipyards accounting practices. We request additional
comments from DFAS by October 23, 1998.

                                            ii
Table of Contents
Executive Summary                                                    i

Part I. Audit Results
     Introduction
     Audit Background
     Audit Objectives
     Finding A. Revenue Recognition During FY 1995
     Finding B. Method of Revenue Recognition
     Finding C. Recognizing Expenses and Billing Customer Orders

Part II. Additional Information
     Appendix A. Audit Process
       Scope
       Methodology
       Management Control Program Review
       Summary of Prior Coverage
     Appendix B. Allegations and Audit Results
     Appendix C. Revenue Variances Impact on Future Year Financial
                  Statements
     Appendix D. Report Distribution


Part III. Management Comments
      Department of the Navy Comments
      Defense Finance and Accounting Service Comments
Part I. Audit Results
Introduction
     The audit was performed in response to allegations of management irregularities
     reported to the Defense Hotline. The allegations addressed both accounting and
     personnel issues at the Defense Finance and Accounting Service (DFAS)
     Operating Location (OPLOC) Norfolk, Virginia, and the Norfolk Naval
     Shipyard (NNSY). Our audit was limited to the accounting issues; the
     personnel issues relating to adverse actions are being addressed by the U.S.
     Office of Special Counsel. The complainant alleged that the OPLOC Norfolk
     was mismanaging its accounting operations for the NNSY by not fully
     disclosing pertinent accounting information in the NNSY Financial and
     Operating Statements for FY 1995. The financial and operating statements,
     with supporting schedules, were submitted to the Commander, Naval Sea
     Systems Command. The allegation was substantiated. The complainant alleged
     that the OPLOC Norfolk lacked management controls over its NNSY
     accounting operations. The allegation was substantiated. The complainant also
     alleged that the NNSY, along with the OPLOC Norfolk, inappropriately
     processed a $10 million refund that resulted from an overpayment made to the
     Internal Revenue Service (IRS) by NNSY. The allegation was partially.
     substantiated. The specific allegations and audit results are discussed in
     Appendix B.


Audit Background
     Norfolk Naval Shipyard. The NNSY is part of the Depot Maintenance
     Business Area of the Navy Working Capital Fund. The primary missions of the
     NNSY are to dry-dock, repair, and modernize Navy ships and to provide
     logistics support for the Atlantic Fleet and other customers in the Mid-Atlantic
     region. In FY 1995, the NNSY reported assets of $428.8 million, revenues of
     $602.4 million, and net revenues of $103.7 million in its financial and operating
     statements. In FY 1996, assets were reported at $413.3 million, revenues at
     $680 million, and net revenues at $34.1 million. Table 1 shows the change in
     the accounts reported by the NNSY between FYs 1995 and 1996.




     Defense Finance and Accounting Service. During FY 1992, DFAS assumed
     accounting and finance functions that were previously performed by the NNSY.
     At that time, a Defense Accounting Office was established in Norfolk, Virginia,


                                         2
     to support the NNSY accounting operations. In FY 1995, personnel assigned to
     the Defense Accounting Office were reassigned to the OPLOC Norfolk.
     Subsequently, the OPLOC Norfolk assumed accounting responsibility for the
     Portsmouth and Puget Sound Naval Shipyards and for shipyards that are being
     phased out as DOD downsizes. The OPLOC Norfolk maintains the general
     ledger accounting records for the NNSY; prepares the NNSY Financial and
     Operating Statements for the Naval Sea Systems Command (NAVSEA); and
     prepares the Department of the Navy Industrial Business Information System
     trial balances, which are submitted to the DFAS Cleveland Center for the
     fiicial    statements of the Navy Working Capital Fund.

     Accounting Systems. The NNSY uses the Shipyard Management Information
     System (SYMIS) for accounting. SYMIS consists of two primary modules:
     financial applications and material management applications. The financial
     applications maintain the subsidiary ledgers that support the general ledgers.
     The OPLOC Norfolk uses spreadsheets to maintain the general ledgers for the
     NNSY. The OPLOC Norfolk manually records in the general ledger
     spreadsheets information from SYMIS monthly reports. The general ledger is
     not integrated within SYMIS.

     Revenue Recognition. This report addresses three methods of revenue
     recognition: percentage-of-completion, completed-order, and income.

            l With the percentage-of-completion method, the revenue earned on a
     customer order is recognized monthly, based on the ratio of costs incurred to
     date compared to the total costs estimated for the completed order.

             l The completed-order method recognizes revenue earned and the
     associated costs incurred on a customer order at completion. A work-in-process
     account is used to accumulate costs until the order is completed.

             l  The income method recognizes revenue and the associated costs of a
     customer order throughout the duration of the order. These costs are recognized
     each time the customer is billed. The revenue recognized for each order equals
     the costs incurred on the order or the total price of the order, whichever is less.
     Gains or losses are not recognized until the order is completed.


Audit Objectives

     The audit objective was to determine whether irregularities in accounting
     procedures existed at the OPLOC Norfolk and the NNSY, as reported to the
     Defense Hotline, and to evaluate management controls related to the audit
     objective. See Appendix B for a summary of the allegations made to the
     Defense Hotline and audit results. Specifically, our objectives were to
     determine whether the NNSY and the OPLOC Norfolk consistently and
     accurately accounted for the results of operations and adequately disclosed
     accounting data in the NNSY Financial and Operating Statements. See
     Appendix A for a discussion of the scope, methodology, and management
     control program.

                                          3
            Finding A. Revenue Recognition During
            FY 1995
           The OPLOC Norfolk recorded journal vouchers that reflected erroneous
           and unsupported gains in the NNSY general ledger accounts. The
           OPLOC Norfolk recorded the journal vouchers, which were prepared by
           the NNSY, without obtaining or analyzing supporting documentation.
           The variance gains were recognized although customer orders had not
           been completed and fina bills were not issued at the end of FY 1995.
           The NNSY personnel stated that the Financial and Operating Statements
           were adjusted in response to the NAVSEA emphasis on meeting its
           FY 1995 net revenue goal. The journal vouchers caused net revenue of
           $103.7 million to be reported in the NNSY FY 1995 Financial and
           Operating Statements. The reported net revenue was overstated by
           $13.3 million.


Policy for Recognizing Gains and Losses on Customer Orders

    The “DOD Fhancial Management Regulation.” The “DOD Financial
    Management Regulation, n DOD Regulation 7000.14-R (the Regulation), volume
    llB, “Defense Business Operations Fund,” chapter 61, “Progress Billings,
    Reimbursement, and Revenue Recognition, n December 1994, establishes
    specific methods of revenue recognition for each business area of the Defense
    Working Capital Funds and directs that revenue and associated costs be
    recognized in the same accounting period. Activities in the Depot Maintenance
    Business Area, which includes Naval shipyards, are to use either the percentage-
    of-completion method or the completed-order method.

    The Regulation also requires depot maintenance activities such as the Naval
    shipyards to establish stabilized rates for budgeting, accounting, and billing
    customers. Stabilized rates are set at levels estimated to recover the full costs of
    services provided. The Regulation recognizes that gains or losses may occur
    with stabilized rates, as a result of variations in the depot maintenance program.
    However, those gains and losses are generally used to adjust stabilized rates in
    future years.

    NAVSEA Instruction. NAVSEA Instruction No. 7670.1, “Naval Sea Systems
    Command Navy Industrial Fund Financial Management Systems and Procedures
    Manual, n June 7, 1990, gives guidance for computing gains and losses on
    customer orders. The overall gain or loss consists of a stabilized rate variance
    and a fixed price variance. The stabilized rate variance measures the difference
    between the stabilized cost (the cost assigned to the customer order using
    stabilized rates) and the actual cost of the customer order. Fixed price variances
    are computed for fixed price customer orders. A fixed price variance is the
    difference between the stabilized cost assigned to the order and the fixed price
    of the order.



                                         4
                                Finding       A. Revenue Recognition During FY 1995



    The NNSY adopted a method of revenue recognition referred to as the income
    method. Under the income method, the NNSY was to recognize revenue and
    the associated costs of a customer order throughout the duration of the order,
    each time the customer was billed. The amount of revenue recognized for each
    customer order was to equal the costs incurred on the order or the total price of
    the order, whichever was less. Variances (gains or losses) were not to be
    recognized until the order was completed and the final bill was sent to the
    customer.


Revenue Recognition by NNSY

    For FY 1995, NAVSEA set a net revenue goal of $101 million for the NNSY.
    To meet this goal, the NNSY prepared two journal vouchers that inappropriately
    recognized stabilized rate gains and fixed price gains totaling $13.3 million for
    104 customer orders. These vouchers were then provided to the OPLOC
    Norfolk without supporting documentation. These two journal vouchers
    increased net revenue and operating results by 15 percent for the period ending
    September 30, 1995.

    FY 1995 Revenue Variances. The NNSY deviated from their normal methods
    of revenue recognition for nonshipwork customer orders when they prepared the
    journal vouchers. The method adopted recognized revenue in FY 1995 that
    should not have been recognized until the customer orders were completed in
    subsequent fiscal years.

    In developing the journal vouchers, the NNSY acknowledged that they only
    judgmentally selected customer orders that were scheduled for completion on
    September 30, 1995, and showed stabilized rate gains and fmed price variance
    gains. Customer orders with variance losses were excluded. However, the
    customer orders selected were not completed and final bills were not issued by
    September 30, 1995. The gains were not earned and should not have been
    recognized in FY 1995. Under the income method of revenue recognition,
    variance gains and losses should not be recognized on customer orders until the
    work was completed and a final bill was issued.

    For the period ending September 30, 1995, the NNSY prepared two journal
    vouchers reflecting the $13.3 million in variance gains as revenue. The
    adjustments allowed the NNSY to report net revenue of $103.7 million for
    FY 1995. The OPLOC Norfolk received and processed the journal vouchers in
    the NNSY general ledger. The OPLOC Norfolk did not questione or request
    supporting documentation for the variance gains, and none was provided. The
    general ledger, maintained by the OPLOC Norfolk, was used in preparing the
    NNSY Financial and Operating Statements. The general ledger balances were
    also submitted to the DFAS Cleveland Center for inclusion in the Navy Defense
    Business Operations Fund (DBOF) financial statements for FY 1995.




                                          5
F”miing A. Revenue Recognition During FY 1995




      The journal voucher recorded at the end of FY 1995 significantly distorted the
      NNSY Statement of Operating Results and Changes in Net Position. We
      believe the NNSY personnel intentionally adjusted the net revenue for the
      shipyard. The NNSY actions to shift revenues to FY 1995 also impacted future
      year NAVSEA financial statements. A discussion of these future year revenue
      variances is contained at Appendix C.

      NAVSEA Responsibilities.      NAVSEA is responsible for ensuring its activities
      adhere to the appropriate accounting principles. NAVSEA should have ensured
      that the NNSY was following the revenue recognition policy established in the
      Regulation. However, NAVSEA exercised minimal oversight of accounting
      operations at the shipyards. Our discussions with the NAVSEA and the NNSY
      accounting personnel indicated that the NNSY adjusted its Financial and
      Operating Statements because of the NAVSEA emphasis on meeting its net
      revenue goal.


Responsibilities     of DFAS

     DFAS provides accounting support to the NAVSEA shipyards in accordance
     with the Regulation, volume 6, “Reporting Policy and Procedures,”
     February 1996, chapter 2, “Departmental Financial Reports Roles and
     Responsibilities. n The Regulation states that both DFAS and Navy customers
     are responsible for reviewing financial reports to assess the accuracy of the
     information, and for taking any corrective actions needed to improve the
     timeliness and quality of financial reports. DFAS is required to analyze
     monthly financial statements, perform trend analyses, and research significant
     fluctuations in dollar amounts. The Regulation also states that additional
     guidance will be developed to address the responsibilities for financial reports at
     the intermediate and installation levels. At the time of our audit, this
     supplemental guidance had not been developed or issued.

     The DFAS has not developed or issued guidance defining the OPLOC Norfolk’s
     responsibilities for oversight of the NNSY accounting operations and the
     preparation of the NNSY financial reports. Accounting personnel at the
     OPLOC Norfolk stated that they did not believe that the OPLOC Norfolk was
     responsible for analyzing the validity and accuracy of the shipyard’s accounting
     data or for disclosing any deviations from accounting principles. Rather, they
     believed that their responsibility for the NNSY financial statements was limited
     to preparing the financial statements based entirely on the financial data
     provided by the NNSY. As a result, the OPLOC Norfolk did not exercise
     suffkient oversight of the NNSY accounting operations. Although the OPLOC
     Norfolk personnel were aware that the NNSY net revenue had increased by
     $16 million (from $87 million to $103 million) between the draft and final
     versions of the NNSY FY 1995 Financial and Operating Statements, they did
     not perform sufficient research to determine the cause of the increase or whether
     it was justified.




                                          6
                                 F’indi.ug A. Revenue &cognition     During J?Y1995



     The OPLOC Norfolk’s analyses of financial data, including significant
     fluctuations in account balances and the reconciliation of detailed records to
     control accounts, were inadequate. Our interviews with the OPLOC Norfolk
     personnel indicated that accounting personnel lacked the technical expertise to
     perform analyses or maintain sufficient controls to ensure the accuracy and
     validity of the NNSY accounting data and financial statements. The OPLOC
     Norfolk acted as an extension of the Comptroller, NNSY. This is significant
     because DFAS has recently made the OPLOC Norfolk responsible for
     accounting functions for all Naval shipyards except the Pearl Harbor Naval
     Shipyard in Hawaii.


Conclusion
    The NNSY disregarded accounting principles for matching and consistency by
    using an improper method of revenue recognition. The improper method was
    used to recognize variance gains when accounting for nonshipwork customer
    orders. The NNSY inappropriately recognized $13.3 million of stabilized rate
    gains and fixed price variance gains for FY 1995. Improperly recognizing
    revenue would also result in the subsequent understatement of net revenue for
    FY 1996 and beyond when all customer orders were completed and reconciled.
    This resulted in overstatements of net revenue in the NNSY FY 1995 Financial
    and Operating Statements and in the accounting data provided to the DFAS
    Cleveland Center for preparation of the FY 1995 Navy DBOF financial
    statements. The OPLOC Norfolk did not require supporting data for
    adjustments to the draft financial statements or analyze the propriety of the
    adjustments. Because of management’s intentions and because personnel lacked
    technical expertise, the OPLOC Norfolk performed very limited analyses of the
    accuracy of the NNSY FY 1995 Financial and Operating Statements before
    forwarding them to the DFAS Cleveland Center.


Recommendations and Management Comments
    A.l. We recommend that the Commander, NAVSEA, investigate the
    improper recognition of revenue and initiate appropriate disciplinary
    action, if warranted.

    Management Comments. The Department of Navy concurred with the
    recommendation. The NAVSEA will investigate the improper recognition of
    revenue and initiate appropriate disciplinary action.




                                        7
Finding A. Revenue Recognition During FY 1995




      A.2. We recommend that Director, DFAS:

            a. Train the DFAS OPLOC Norfolk staff so that they are
      knowledgeable in shipyard accounting operations and DOD accounting
      procedures.

           b. Issue and enforce guidance defining the responsibilities of the
      DFAS OPLOC Norfolk. The guidance should require the OPLOC Norfolk
      to:

                    (1) Obtain supporting documentation for all journal
      vouchers entered into the general ledger and obtain an understanding of
      the vouchers.

                   (2). Assess the accuracy of accounting information reported
     by the organizations that the OPLOC Norfolk supports. This should
     include analyses of fmancial reports, research of significant fluctuations in
     account balances, and reviews of journal vouchers at the end of each
     accounting period.

                     (3) Report the results of its analyses, and any deviations
     from established accounting principles used by the shipyard, in the
     certification letter that accompanies the Norfolk Naval Shipyard’s Financial
     and Operating Statements.

     Management Comments. The DFAS concurred and stated that a formal plan
     was developed including a training regimen for personnel responsible for
     Working Capital Fund accounting and that training was conducted during March
     1997. The DFAS Cleveland Center will issue guidance requiring the OPLOC
     Norfolk to obtain and understand supporting documentation for all journal
     vouchers entered into the Working Capital Fund, to assess the accuracy of the
     financial data received from organizations it supports, to footnote any deviation
     from an established accounting policy and or procedure on the financial
     statements, and to report the footnote to the Activity, Major Command, and
     DFAS Cleveland Center.




                                         8
            Finding B. Method of Revenue
            Recognition
           The NNSY used an inappropriate method of recognizing revenue. The
           revenue recognition method did not comply with DOD Regulation
           7000.14-R (the Regulation), and was not consistent with the practices of
           other Naval shipyards. The NNSY did not disclose the alternate revenue
           recognition method in its notes to the financial statements, and the
           OPLOC Norfolk did not disclose the method in its certification letter for
           the financial statements. This occurred because the NAVSEA and the
           OPLOC Norfolk did not exercise sufficient oversight of accounting
           practices to ensure that the NNSY complied with the Regulation. As a
           result, the NNSY Financial and Operating Statements were not
           comparable to the statements of other shipyards, and the consolidated
           financial statements of the Depot Maintenance Business Area of the
           Navy DBOF were not prepared consistently in FYs 1995 and 1996.


Regulations and Accounting Policy

    DOD Regulation 7000.14-R. The Regulation, volume llB, chapter 61, directs
    that revenue and associated costs must be recognized in the same accounting
    period and that revenue recognized cannot exceed the amount specified in the
    job order. The Regulation establishes specific methods of recognizing revenue
    for each business area of the Working Capital Fund. Activities in the Depot
    Maintenance Business Area, which include Naval shipyards, are to use the
    percentage-of-completion method or the completed-order method, as
    appropriate.

    The Regulation specifies that the percentage-of-completion method shall be used
    for all orders with an estimated value of $1 million or more and a planned
    production cycle of 12 months or more. With this method, the revenue earned
    on an order is recognized monthly, based on the following ratio:

                                  Costs incurred to date
                        Total costs estimated for completed order

    The Regulation specifies that the completed-order method shall be used for all
    orders that have an estimated value of less than $1 million, or a planned
    production cycle of less than 12 months. This method recognizes both the
    revenue earned and the associated costs incurred on an order at completion.
    A work-in-process account is used to accumulate costs until the order is
    completed.

    NAVSEA Guidance on Revenue Recognition. On May 11, 1995, the
    Commander, NAVSEA, issued a memorandum directing Navy DBOF activities




                                       9
Finding, B. Method of Revenue Recognition




      to implement the Regulation. Implementation would mean that Navy DBOF
      activities should use the percentage-of-completion and completed-order methods
      of revenue recognition beginning FY 1995.

      Statement of Federal Financial Accounting Concepts.          On September 2,
       1993, the Federal Accounting Standards Advisory Board issued Statement of
      Federal Financial Accounting Concepts No. 1, “Objectives of Federal Financial
      Reporting.” The concept recognizes that to be useful, financial reports should
      be consistent over time; when an accounting principle or reporting method is
      adopted, it should be used for all similar transactions unless and until there are
      good reasons to change. If and when an accounting principle is changed, the
      reason for the change and its nature and effect should be disclosed. The concept
      also recognizes that to be useful, financial reports should be comparable. To
      allow useful comparisons of costs or activities, differences among financial
      reports should be caused by substantive differences in the underlying
      transactions or organizations rather than by selecting different alternatives
      among accounting procedures or practices.


Revenue Recognition Practice
      The NNSY did not fully implement the guidance in the Regulation for revenue
      recognition. The NNSY used the percentage-of-completion method to recognize
      revenue for major ship overhaul work, which typically involved customer orders
      exceeding $1 million and production cycles in excess of 90 days. The NNSY
      correctly computed a single percentage for all customer orders associated with a
      specific ship. Major ship overhaul work represented $556.6 million in
      FY 1996, or 82 percent of the NNSY revenue. The NNSY procedures for
      recognizing revenue and expenses generally complied with the intent of the
      Regulation.

      For nonshipwork customer orders, the NNSY used either the completed-order
      method specified in the Regulation, or an alternative method referred to as the
      income method. These customer orders represented $123.4 million in FY 1996,
      or 18 percent of the NNSY revenue.

      When using the completed-order method to recognize revenue, the NNSY
      generally complied with the Regulation. In some cases, however, these orders
      exceeded $1 million or had a production cycle in excess of 12 months, and the
      NNSY did not have a means of recognizing revenue for these customer orders
      using the percentage-of-completion method.

      However, the NNSY did not comply with the Regulation when recognizing
      revenue based on the income method. The income method recognized revenue
      and associated costs throughout the life of the order at the time progress billings
      were sent to the customer. The revenue recognized for each customer order
      equaled the costs incurred on the order or the total price of the order, whichever
      was less. Under the income method, variances on customer orders, both gains
      and losses, were not recognized until a project was completed and the fti bill
      was issued.

                                           10
                                       F’iuding B. Method of Revenue Recognition



    The income method did not satisfy the requirements of either the completed-order
    method or the percentage-of-completion method. The NNSY did not recognize
    the percentage of the variance earned in the year that the related expenses were
    recognized. On the other hand, the NNSY did not accumulate costs associated
    with the order in a work-in-process account and defer revenue recognition until
    the order was completed.

    Prior Audit Coverage. As part of its audit of the FY 1995 Navy DBOF
    financial statements, the Naval Audit Service (NAS) reported the use of this
    unauthorized method of revenue recognition to the Comptroller, Norfolk Naval
    Shipyard, and the Director, OPLOC Norfolk (see Appendix A). The NAS
    could not measure the impact of the deviation from authorized methods of
    revenue recognition to determine whether it caused a material misstatement in
    the financial statements. Therefore, NAS did not recommend adjustments to the
    FY 1995 Navy DBOF financial statements.

    FY 19% Navy DBOF Financial Statements. In FY 1996, the revenue of all
    Naval shipyards, which constituted the Shipyard portion of the Depot
    Maintenance Business Area, accounted for approximately $3 billion, or
     12.5 percent of the total revenue of the Navy DBOF. The Portsmouth Naval
    Shipyard and the Puget Sound Naval Shipyard did not use the income method of
    revenue recognition. Because of the inconsistency in accounting methods, the
    magnitude of the NNSY deviation could not be determined. The revenue
    recognition policy of the NNSY was not consistent with the policy adopted by
    the other Navy shipyards. As a result of the NNSY deviation from DoD-
    approved methods of revenue recognition, the FY 1996 Financial Statements for
    the Depot Maintenance Business Area were not consistently or accurately
    reported.


Oversight by NAVSEA and DFAS
    The Regulation, volume 6, chapter 2, states that both DFAS and Navy
    customers are responsible for reviewing financial reports to assess their accuracy
    and for taking corrective actions when needed to improve the timeliness and
    quality of financial reports.

    NAVSEA exercised minimal oversight of the NNSY accounting policy and
    procedures. The NAVSEA did not oversee shipyard operations to ensure that
    accepted accounting principles were adopted for the Depot Maintenance
    Business Area. Although NAVSEA directed the Naval shipyards to implement
    the Regulation, NAVSEA personnel did not ensure that the NNSY used
    authorized methods of revenue recognition.

    DFAS has not defined the responsibilities of the Operating Locations for
    overseeing the financial reporting of the military activities they support. The
    OPLOC Norfolk was responsible for ensuring that the NNSY either used
    authorized methods of revenue recognition or disclosed the deviation from
    accounting principles in its Financial and Operating Statements. In January
    1996, the NAS informed the OPLOC Norfolk that the NNSY was using

                                        11
Finding B. Method of Revenue Recognition



      noncompliant methods of revenue recognition. However, the NNSY did not
      adjust its Financial and Operating Statements for FYs 1995 and 1996, and did
      not disclose the noncompliance in the certification letters accompanying those
      statements.

      Summary. The NNSY adopted a method of revenue recognition that was not
      authorized for use by depot maintenance activities. As a result, the NNSY
      Financial and Operating Statements were not comparable to the statements of
      other shipyards, and the financial statements of the Navy DBOF were not
      prepared consistently. In January 1996, this condition was reported to the
      Comptroller, NNSY, and the OPLOC Norfolk. The NNSY did not take
      corrective action, and the OPLOC Norfolk did not report the deviation from
      accounting principles in the notes to the financial statements or in the
      certification letter accompanying the statements.



Recommendations, Management Comments, and Audit
Response

      B.1. We recommend that the Commander, NAVSEA, establish procedures
      to:

             a. Ensure NNSY’s application of revenue recognition methods are
     consistent with those used by other Naval shipyards.

              b. Ensure that the accounting operations of the NNSY, and other
     activities that constitute the Depot Maintenance Business Area of the Navy
     Working Capital Fund (formerly the Defense Business Operations Fund),
     comply with the accounting principles in the DOD Regulation 7000.14-R
     (the Regulation), the “DOD Financial Management Regulation.”

     Management Comments. The Navy concurred with the recommendations and
     stated that the NAVSEA discontinued use of the of the income billing method.
     During the second quarter of FY 1998, NAVSEA modified its SYMIS to apply
     the completed order revenue recognition method to orders previously using the
     income billing method. The revision conforms to SFFAS No. 7. Each
     shipyard is currently operating under the same version of SYMIS. NAVSEA
     plans to issue operational guidance to ensure Naval Shipyard activities use
     appropriate revenue recognition procedures and will review the use of these
     procedures during future command performance reviews.

     B.2. We recommend that the Director, DFAS:

            a. Direct the DFAS OPLOC Norfolk to review the financial
     operations of the activities it supports to ensure that the accounting
     principles used comply with the Regulation or have initiated action to
     comply with the Regulation.



                                         12
                                    Finding B. Method of Revenue Recognition



Management Comments. The DFAS nonconcurred and stated that DFAS has
a responsibility to review and analyze the data submitted by its customers and to
advise its customers if the DFAS identifies a practice that is not in compliance
with the Regulation. However, it is not appropriate for the DFAS to review the
financial operations of its customers because DFAS is not in the chain of
command of the customer organization.

Audit Response. Management comments were partially responsive. We agree
with the DFAS position that DFAS has the responsibility to review and analyze
the data submitted by its customers and advise them when an accounting
practice in not in compliance. However, the DFAS OPLOC Norfolk was not
performing the necessary reviews or analysis to make any determination on its
customer’s accounting practices. We request that DFAS provide comments on
the final report. The comments should identify specific actions that DFAS will
take to fulfill its responsibility to alert its customers when an accounting practice
is not in compliance with the Regulation.

       b. Disclose deviations from the Regulation in the notes to the
fmancial statements or the certification letter accompanying the fmancial
statements.

Management Comments. The DFAS partially concurred and indicated that the
Cleveland Center will issue guidance to all of its network OPLOCs to footnote
any deviation from an established accounting policy on the financial statements
and forward copies to the activity, applicable Major Command, and the DFAS
Cleveland Center. The DFAS Centers are responsible for disclosures on the
financial statements with input from the military departments.

Audit Response. Management comments were responsive. The actions
proposed by DFAS satisfy the intent of the recommendations.




                                     13
            Finding C. Recognizing Expenses and
            Billing Customer Orders
            In September 1996, the NNSY inappropriately charged customers
            $2.5 million for contractual services and material that had not been
            provided. While those transactions did not cause a material misstatement
            of the NNSY Financial and Operating Statements, the inappropriate
            recognition of expenses violated accounting principles for matching
            revenue and expenses to the appropriate accounting period and caused
            premature billing of the customers. The inappropriate charges occurred
            because the Comptroller, NNSY, had not established procedures for
            supervisors to give their approval for contractual services to be accrued
            and charged to customer orders. As a result, the NNSY prematurely
            billed customers $2.5 million for costs that the NNSY had not incurred,
            and revenue and expenses were overstated for the period ending
            September 30, 1996.


Accrual of Expenses for Service Contracts

     In September 1996, the Comptroller, NNSY, processed transactions that
     erroneously accrued costs for service contracts and prematurely charged the
     costs to customer orders. The “Navy Comptroller Manual, n volume 5, July 29,
      1981, specifies that costs on service contracts will be fully accrued for all
     services provided through the last day of the fiscal year. Accruals applicable to
     direct work should be charged to the appropriate customer order and transferred
     to work-in-process with other direct costs. However, the NNSY accrued costs
     for services that had not been performed as of September 30, 1996. As a result,
     the NNSY prematurely billed customers $2.4 million for services that had not
     been received, and revenue and expenses were recognized in an incorrect
     accounting period.

     For example, in July 1996, the NNSY and NAVSEA negotiated amendments to
     a fmed-price customer order (Customer Order No. 534W7) to increase the work
     being performed on the order. The order was for the preparation of drawings
     and records. Between June 27 and September 23, 1996, the NNSY awarded
     10 cost-reimbursable contracts for preparation of the drawings and records with
     estimated costs of $2,886,142. The contracts were not to be completed by
     September 30, 1996; in most cases, the contract performance period ended
     between November 1996 and April 1997.

     In September 1996, the NNSY accrued expenses of $2,630,469 for the
     contracts. However, as shown in Table 3, $2,426,681 of the accrual was for
     services that had not been provided by September 30, 1996.




                                        14
                  Finding C. Recognizing Expenses and Billing Customer Orders




                    Table 3. Improper ~Acq=yalof Contract +sts               :
                                                     cosfs Accrued- Ilnp&i       Accrual:
                                          Amount        Through   Th&lgll
      ContractNnniber    Dateof Aw&-c~~&Contract :$ent 30. 1996 &@ 30. 1996

                      &ne 27, 1996 $- 234$53
     ~NtKI181-6169-&500::                             >$ 63;933.        $    40,407
     ~NOO181.~204-4~OQ Aug. 6, 1996       70,999         53,477              31,424
     N0018:1~2194500 hug. 13, 1-9%        94;390         67,159              36,430
     NOOI8’1-6207-4500 Aug. 16, 1996    263,450         263,450             249,257
     NOOf81-6207-4501 Aug. -16, W96      354,281        354,281             322,371
     NOO181-6238-4501 Sept. Id, .I996   4977251         497,25 i            4%,829
     NOOl81-6237-4502 Sept. 19, 1996:    377,999        377,999             331,680
     NOO181-6238-4500 Sept. 19, lm    : -41fQf6         411,9.16            411,673
     N0OI81~-6237+03 Sept. 23, 1:99@     1?5;004        175,004             170,205
     NOOl81-6237-4504 Sept. 23, 19%     -365999         365,999             336.405

      TOM                               $&886:$42     $2.630.469        $2.426.681          i

     The accruals by the NNSY distorted its FY 1996 Financial and Operating
     Statements because the revenue and expenses were not reported in the correct
     accounting period. Although the contracts represented valid obligations, the
     accrued costs were not FY 1996 expenses. In addition, the NNSY prematurely
     billed NAVSEA by processing a final bill for the customer order on October 18,
     19%. NAVSEA was charged for the accrued contractual services, although the
     services had not been performed.



Recording Expenses for Direct Material Costs to Customer
Orders

    In September 1996, personnel in the Office of the Comptroller, NNSY,
    recorded financial transactions that classified unused direct material and material
    commitments as excess to customer orders. Those transactions caused material
    commitments valued at $42,430 to be charged to the customer orders, although
    the material had not been received or issued to the orders. The customers were
    billed for the material in October 1996. In many cases, material was still back-
    ordered from the wholesale supply system in July 1997. Those transactions
    caused the NNSY to prematurely recognize revenues and expenses for customer
    orders. Revenues and expenses were not recognized in the accounting period in
    which the costs were incurred.

    Policy on Charging Direct Material Costs to Customer Orders. The “Navy
    Comptroller Manual, n volume 5, gives guidance for charging material costs to
    customer orders. Customer orders are normally charged when the material is




                                        15
Finding C. Recognizing Expenses and Billing Customer Orders



      released to the work center from the direct material inventory. Customer orders
      should be charged for the value of excess or unused direct material when the
      material:

             l   was not used due to customer action,

             l   was not needed to satisfy a foreseeable requirement at the shipyard, and

             l   cannot be returned to the wholesale supply system for credit.

      NNSY Charging of Direct Material Costs. The NNSY did not comply with
      Navy policy for charging direct material costs to customer orders. When
      preparing to close customer orders and issue final bills, the NNSY declared
      material and material commitments, valued at $181,286, excess to customer
      orders. The NNSY then charged the material to the customer orders without
      screening it for alternate use or return to the supply system. In the case of the
      material commitments, which were usually requisitions to the DOD supply
      system, the transactions caused the NNSY to recognize expenses for material
      that had not been received by the shipyard or issued to customers.

      For example, the Commander in Chief, U.S. Atlantic Fleet, issued a
      cost-reimbursable work request to the NNSY for services of the Calibration and
      Material Laboratory (Work Request No. 7 lYH2). As of September 16, 1996,
      the NNSY had obligated $181,286 for material commitments to support the
      customer order. At the end of September 1996, personnel in the Office of the
      Comptroller, NNSY, recorded excess material transactions that charged the
      material to the customer order. For accountability purposes, the material
      commitments were reassigned to an excess job order. We reviewed
      28 requisitions and purchases by the NNSY that accounted for $56,797 of the
      $181,286 in material commitments. As of September 30, 1996, material for
      20 of the 28 purchases, valued at $42,430, had not been received by the
      shipyard or issued on the work request.

     On October 18, 1996, the NNSY issued a progress billing on the customer order
     for the material commitments. Thus, the U.S. Atlantic Fleet was prematurely
     billed for material that had not been provided on the order. In addition, the
     NNSY recognized revenues and expenses related to the material in October 1996,
     which was not the correct accounting period.


Conclusion
     The costs of contractual services and direct material are not costs of the
     customer order until the services are provided on the order or until the material
     is received and issued to the customer. The transactions processed by the
     NNSY caused premature billing of customers. In addition, because revenues




                                          16
                 F’hding C. Recognizing Expenses and Billing Customer Orders




    and expenses were not recorded in the accounting period in which the costs
    were incurred, those transactions distorted the NNSY FY 1996 Financial and
    Operating Statements.



Recommendations, Management Comments, and Audit
Results

    C. We recommend that the Commander, NNSY, establish procedures requiring
    supervisors to review and approve the accrual of contract costs and charging
    material to customer orders.

    Management Comments. The Department of Navy partially concurred. The
    Navy stated that NNSY deviated from approved Navy guidelines for closing
    customer orders and costing excess material and outstanding commitments.
    Training was held April 10, 1998, for senior managers and fund administrators
    on accounting for accruals and charging excess material to customer orders.
    The Navy disagrees that supervisors should review and approve each accrual.
    Supervisors will oversee the fund administrators performance.

    Audit Response. Management comments were responsive.        The actions
    proposed satisfy the intent of the recommendation.




                                      17
Part II. Additional Information
Appendix A. Audit Process

Scope

    Work Performed. The audit was performed as a result of allegations to the
    Defense Hotline. The allegations addressed both accounting and personnel
    issues at the NNSY and the OPLOC Norfolk. We limited the scope of our audit
    to the accounting issues reported to the Defense Hotline; the personnel issues
    are under review by the U.S. Office of Special Counsel.

    We reviewed accounting procedures and controls at both the NNSY and the
    OPLOC Norfolk for the recording and reporting of financial data in the NNSY
    Financial and Operating Statements for FYs 1995 and 19%. Specifically, we
    reviewed journal voucher transactions for revenue recognition in September
    1995 and system transactions for closing customer orders in September 1996.
    We also reviewed the OPLOC Norfolk’s controls over compiling the NNSY
    Financial and Operating Statements. Our review of the management control
    program for the OPLOC Norfolk and the NNSY was limited to accounting
    allegations reported to the Defense Hotline.

    DOD-wide Corporate Level Government Performance and Results Act
    (GPRA) Goals. In response to the GPRA, the Department of Defense has
    established 6 DOD-wide corporate level performance objectives and 14 goals for
    meeting these objectives. This report pertains to achievement of the following
    objectives and goals:

        Objective: Fundamentally reengineer the Departments and achieve a 21st
        century infrastructure. Goal: Reduce costs while maintaining required
        military capabilities across all DOD mission areas. (DOD-~)

    DOD F’unctional Area Reform Goals. Most major DOD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

        l   Financial Management Functional Area. Objective: Strengthen
            Internal Controls Goal: Improve compliance with the Federal
            Financial Management Improvement Act. (FM-5.3)

        l   Financial Management Functional Area. Objective: Reengineer
            DOD business practices. Goal: Standardize and enhance DBOF
            operating procedures. m-4.2)

    General Accounting Office High Risk Area. The General Accounting Office
    (GAO) has identified several high risk areas in the DOD. This report provides
    coverage of the Defense Financial Management high risk area.

                                      20
                                                       Appendix A. Audit Process



    Audit Type, Dates, and Standards. This financial-related audit was
    conducted from March 1997 through January 1998 in accordance with auditing
    standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DOD.

    Contacts During the Audit. We performed the majority of our work at the
    NNSY and the OPLOC Norfolk. Additional work was accomplished at the
    DFAS Cleveland Center, NAVSEA, and other Naval shipyards. Further details
    are available on request.


Methodology
    We categorized the accounting allegations reported to the Defense Hotline into
    three areas: Disclosure, Internal Controls, and Roles and Responsibilities.
    Appendix C discusses the details of the allegations and audit results for each
    area. We reviewed pertinent public laws, DOD regulations, and instructions
    applicable to the areas, and we interviewed responsible NNSY officials and
    OPLOC Norfolk personnel involved in accounting for the NNSY operations.

    We reviewed the NNSY FY 1995 Financial and Operating Statements, which
    identified unreconciled amounts in the work-in-process account. We reviewed the
    work-in-process general ledger account and its reconciliation. As part of the
    reconciliation, we reviewed journal vouchers totaling $13.3 million that were
    recorded by the NNSY to recognize gains on 104 customer orders in
    September 1995. We judgmentally selected and reviewed 22 of the 104 customer
    orders valued at $9.5 million. We reviewed the methods that the NNSY used to
    recognize revenue during FYs 1995 and 1996.

    We reviewed five customer orders with estimated costs of $22.7 million, for
    which transactions were recorded in September 1996. These transactions
    classified material and material commitments associated with the customer
    orders as being excess to the requirements of the orders. We interviewed
    accounting and supply personnel who were responsible for processing the
    customer orders. We also interviewed personnel in the Calibration and Material
    Laboratory, as well as engineering and planning personnel.

    We also reviewed allegations that a $10 million overpayment made by the
    NNSY to the IRS was inappropriately handled. We contacted personnel from
    the OPLOC Norfolk and the NNSY who were responsible for processing and
    accounting for the overpayment. Appendix B gives more details. In addition,
    we interviewed OPLOC Norfolk personnel regarding the unreconciled balance
    in the Statement of Cash Flows presented in the NNSY Financial and Operating
    Statements for FYs 1995 and 1996.

    Use of Computer-Processed Data. We relied on computer-processed data from
    the SYMIS to evaluate the accounting allegations. The SYMIS is the accounting
    system used by the NNSY. We used the data to provide a basis for


                                      21
Appendix A. Audit Process




      understanding accounting transactions and the effect of the transactions on the
      NNSY Financial and Operating Statements. We identified no errors that would
      prevent us from relying on the computer processed data to meet our audit
      objectives or that would alter the conclusions in this report.


Management Control Program Review
      DOD Directive 5010.38, “Internal Management Control Program,” August 26,
      1996, requires DOD organizations to implement a comprehensive system of
      management controls that provides reasonable assurance that programs are
      operating as intended and to evaluate the adequacy of the controls.

     Scope of Review of Management Control Program. We evaluated
     management controls over the aspects of accounting and financial reporting
     related to the allegations. We did not review management’s self-evaluation.
     The Naval Audit Service is reviewing the overall implementation of the
     management control program, to include management’s self-evaluation, as part
     of our joint audit of the Navy Working Capital Fund.

     Adequacy of Management Controls. We identified material management
     control weaknesses as defined by DOD Directive 5010.38. DFAS did not
     establish controls to ensure that journal vouchers prepared by the NNSY were
     adequately supported and justified, and performed very limited analyses of the
     financial data provided by the NNSY. The NAVSEA and the OPLOC Norfolk
     did not establish procedures to ensure that the NNSY complied with accounting
     principles in DOD Regulation 7000.14-R. The NNSY did not establish controls
     to ensure that accruals of service contract costs were accurate and valid. The
     control weaknesses that we identified, and our recommendations for
     improvements, are discussed in Part I. The recommendations, if implemented,
     will improve accounting and financial reporting for the NNSY. A copy of the
     final report will be provided to the senior official responsible for management
     controls.


Summary of Prior Coverage
     NAS Report No. 03596, Wscal Year 1995 Consolidating Financial
     Statements of the Department of Navy Defense Business Operations Fund,”
     May 31, 1996. The NAS reported that on the FY 1995 Consolidating Financial
     Statements of the Navy DBOF, work-m-process accounts were understated at
     nine activities by a net $37 million. The misstatements occurred because revenue
     recognition was incorrectly applied, reported amounts were not reconciled with
     supporting subsidiary ledgers, and uncollectible cost overruns were not written
     off in the period when they occurred. The NAS recommended that the Director,
     DFAS, require subordinate activities to reconcile work-in-process accounts on a
     quarterly basis. The NAS also recommended that the Assistant Secretary of the


                                         22
                                                   Appendix A. Audit Process



Navy (Financial Management and Comptroller [FM&C]) direct Naval aviation
depots to discontinue using the completed-order method of recognize revenue at
the job order level, and direct Navy DBOF activities to stop retaining cost
overruns on fixed-price orders in work-in-process accounts; instead, they should
reflect overruns as expenses in the period incurred.

The Assistant Secretary of the Navy (FM&C) nonconcurred with the
recommendation, stating that DOD Regulation 7000.14-R permitted Naval
aviation depots to use the completed order-method to recognize revenue at the
job order level. The issue remains open between the Assistant Secretary of the
Navy (FM&C) and the NAS. No actions have been taken. The Assistant
Secretary of the Navy (FM&C) agreed that cost overruns on fixed-price orders
should not be retained in work-in-process accounts and directed that these cost
overruns be shown as expenses in the period incurred.

As part of the audit, the NAS also reported to the NNSY and OPLOC Norfolk
that the NNSY used a method of revenue recognition that was not authorized by
DOD Regulation 7000.14-R, and that although the work-in-process general
ledger account had not been reconciled to the subsidiary ledger, the OPLOC
Norfolk had made no attempt to determine why the account was out of balance.




                                   23
Appendix B. Allegations and Audit Results
   Our audit of accounting procedures at the OPLOC Norfolk and the NNSY was
   initiated as a result of allegations reported to the Defense Hotline on January 3,
   1996. The allegations were initially referred to the Defense Criminal
   Investigative Service. The Defense Criminal Investigative Service reviewed the
   allegations and found no criminal intent. The complaints, which included both
   personnel and accounting allegations, were referred to the auditors on February
   25, 1997. Our audit was limited to the accounting allegations. The U.S. Office
   of Special Counsel is addressing the personnel issues.

   Personnel Allegations. The personnel allegations stated that employees of the
   OPLOC Norfolk were subject to adverse personnel actions and were removed
   from their accounting positions because they refused to deviate from accounting
   standards, as requested by the management of the OPLOC Norfolk and the
   NNSY. The complainant also alleged that supervisory accounting personnel at
   the OPLOC Norfolk were subsequently replaced by personnel who had minimal
   knowledge of shipyard accounting and could not provide adequate oversight of
   the NNSY accounting operations, and that errors were not disclosed and were
   not corrected promptly. DFAS management stated that the realignment actions
   were based on other personnel issues and were not related to methods of
   accounting and financial reporting. The personnel allegations that related to
   adverse actions are being addressed by the U.S. Office of Special Counsel.

   Accounting Allegations. We interpreted, analyzed, and evaluated the
   allegations based on documentation and other information received during our
   audit. We categorized the accounting allegations into three areas. The
   accounting allegations and audit results for each area are as follows.

   Allegation 1. The complainant alleged that DFAS serves the same purpose as a
   certified public accounting firm and is required “to fully disclose the facial
   results of the shipyard.” The complainant alleged that the OPLOC Norfolk
   management did not fully disclose pertinent accounting information in the
   NNSY FY 1995 Financial and Operating Statements because the NNSY
   management did not want the OPLOC Norfolk to disclose the information.

   Audit Results. The allegation was partially substantiated. We identified
   material misstatements of accounting data that were not disclosed by the
   OPLOC Norfolk or the NNSY in the Financial and Operating Statements. The
   OPLOC Norfolk and the NNSY are responsible for reporting complete and
   accurate data in the NNSY Financial and Operating Statements. The OPLOC
   Norfolk and the NNSY did not fulfill their responsibilities for accurate
   preparation of the NNSY FY 1995 Financial and Operating Statements, and did
   not fully disclose accounting operations. The NNSY manipulated accounting
   data to present a more advantageous view of the NNSY operations in FY 1995.
   The OPLOC Norfolk did not require supporting documentation for accounting
   adjustments and did not review or analyze the NNSY FY 1995 Financial and
   Operating Statements before issuing them. The OPLOC Norfolk did not review

                                      24
                                   Appendix B. Allegations and Audit Results



changes between the draft and final versions of the NNSY FY 1995 Financial
and Operating Statements. Between the draft and final versions, the NNSY
prepared journal vouchers to improperly adjust the net revenue reported in the
Financial and Operating Statements. The OPLOC Norfolk recorded the journal
vouchers without adequately reviewing the propriety of the vouchers. In
addition, the OPLOC Norfolk did not adequately compare the financial records
from separate accounting periods to detect unusual trends in accounts.

Although the journal vouchers represented a significant change in revenue
recognition methodology, the NNSY and the OPLOC Norfolk did not disclose
the change in the NNSY Financial and Operating Statements or provide any
justification for it. DOD Regulation 7000.14-R states that DOD Components are
responsible for ensuring that financial reports make all appropriate disclosures
considered necessary to fairly present the DOD Component’s financial position.
DOD Regulation 7ooO. 14-R also states that the financial reports should be
consistent between reporting periods.

We did not find any specific evidence that the NNSY instructed the OPLOC
Norfolk to disclose only limited information in the NNSY FY 1995 Financial
and Operating Statements.

Allegation 2. The complainant alleged that the OPLOC Norfolk and the NNSY
lacked management controls over the compilation of the NNSY financial data
and the reporting of data in the NNSY Financial and Operating Statements.

Audit Result. The allegation was substantiated. Both the OPLOC Norfolk and
the NNSY lacked management controls. Shipyard accounting operations at the
OPLOC Norfolk lacked controls to ensure the accurate preparation and
disclosure of financial information in the NNSY Financial and Operating
Statements. Shipyard accounting personnel lacked sufficient training for
preparing the Statement of Cash Sources and Application of Funds. The
Statement of Cash Sources and Application of Funds continues to have an
unreconciled amount, which was adjusted by the OPLOC Norfolk to balance the
statement. The unreconciled amount was not disclosed in the OPLOC Norfolk’s
certification of the NNSY Financial and Operating Statements. For FY 1995,
the unreconciled amount not disclosed was $3,782,535; for FY 1996, the
amount was a negative $2,872,513.

The NNSY management lacked sufficient management controls to ensure that
accounting data were complete and accurate. Accounting data were adjusted to
meet management’s operational goals. The NNSY did not have adequate
controls over transactions entered directly into its accounting system.

The NNSY and the OPLOC Norfolk did not perform any trend analyses or
reviews of the NNSY Financial and Operating Statements. The OPLOC
Norfolk personnel also lacked sufficient understanding of the NNSY accounting
practices, which affected their ability to accurately analyze and disclose
financial data and maintain the NNSY general ledger account.



                                  25
Appendix B. Allegations and Audit Results



      The OPLOC Norfolk personnel also lacked both the understanding and the
      documentation to support the preparation of the NNSY Financial and Operating
      Statements and perform trend analyses. They were unable to discuss the
      principles of revenue recognition and were not aware of current fiicial
      reporting standards. The OPLOC Norfolk accounting supervisor required little
      or no supporting documentation for voucher adjustments and had a minimal
      understanding of the journal vouchers that were posted to the general ledger. In
      addition, no standard operating procedures existed for the OPLOC Norfolk.
      The NNSY did not consistently maintain supporting documentation for
      accounting transactions posted in the accounting system or in journal vouchers.

      Allegation 3. The complainant alleged that the NNSY and the OPLOC Norfolk
      inappropriately processed a $10 million refund from the IRS that was a result of
      an overpayment made to IRS by NNSY.

      Audit Results. The allegation was partially substantiated. Defense Accounting
      Office, Norfolk, Virginia, was established during FY 1992, becoming OPLOC
      Norfolk in FY 1995 and assumed responsibility for the NNSY accounting and
      face    functions previously performed by the NNSY. The NNSY payroll
      function was transferred to OPLOC Charleston, South Carolina in June 1993
      although the accounting for the payroll transactions were assumed by OPLOC
      Norfolk. Our review did not include auditing OPLOC Charleston.

     The OPLOC Norfolk and the NNSY took over three years to correct a
     $10 million withholding tax issue with the Treasury and the IRS. The DFAS
     Deputy Director stated that during this time the transaction was reported as a
     reconciliation item. The issue arose when the NNSY erroneously prepared the
     payroll certification and summary report for the pay period ending May 15,
     1993. The NNSY accounting records did not reflect the error. The NNSY
     records reflected the amount the should have been paid to the IRS. The error
     was discovered by Defense Information Technology Services Organization
     (DITSO) Pensacola when reconciling the federal tax withholdings. DITSO
     Pensacola reported the error to the NNSY in February 1994. In March 1994,
     the NNSY requested that the IRS issue a reimbursement for the overpayment.
     The IRS issued a check payable to the NNSY on October 25, 1994. The
     OPLOC Norfolk deposited the check on December 16, 1994. However, the
     deposit was not properly reflected in the NNSY accounting records until
     January 3 1, 1997. The NNSY Financial and Operating Statements reported an
     unreconciled difference between the NNSY accounting records and Treasury
     records during that period. The OPLOC Norfolk and the NNSY were uncertain
     how to account for the deposit since the overpayment was not initially recorded
     in the NNSY accounting records. The DFAS and the NAVSEA did not provide
     clear or timely guidance to the OPLOC Norfolk or the NNSY to resolve the
     overpayment.




                                         26
Appendix C. Revenue Variances Impact on
Future Year Financial Statements
   The NNSY deviated from their normal methods of revenue recognition for
   nonshipwork customer orders in FY 1995. NNSY prepared the journal
   vouchers to recognize revenue in FY 1995 that should not have been recognized
   until the customer orders were completed and final billed. The customer orders
   were completed and final billed in .FYs 1996 and 1997. This distorted net
   revenue was reported by the NNSY in both FY 1995 and in the fiscal years the
   customer orders were completed.

   As discussed in Finding A, the journal vouchers prepared by the NNSY shifted
   $13.3 million of revenue to FY 1995 that should have been recognized in
   FYs 1996 and 1997. The premature recognition of revenue in FY 1995 reduced
   the net revenue reported in the subsequent years. As a result, the NNSY
   operating results for FYs 1995, 1996, and 1997 were distorted.

   Our review also determined that the gains recognized on customer orders in
   FY 1995 were overstated. The customer orders were not completed at
   September 30, 1995, and additional expenditures were needed to complete the
   customer orders. The actual gain or loss on the customer orders was less than the
   gain recognized in FY 1995.

   Comparison of Variance. We selected a judgmentally sampled 22 of the
   104 customer orders to determine the actual variance, stabilized rate gains and
   fixed price variance gains, when the orders were completed. The 22 customer
   orders accounted for $9.5 million of the $13.3 million in variance gains. The
   actual variance for the 22 customer orders was $3,769,315 less than the gain
   recognized in FY 1995.

   Of the 22 customer orders, 9 orders were substantially complete by
   September 30, 1995. The orders were completed without incurring significant
   additional expense and final bills were issued in October or November 1995. For
   those customer orders, the stabilized rate gains and fixed price variance gains
   closely approximated the actual gains when the customer orders were closed and
   final bills were issued. The gains for the nine customer orders were understated
   by $66,799.

   However, 13 of the 22 customer orders were not substantially complete by
   September 30, 1995. These 13 customer orders were completed and final bills
   were issued between February 1996 and May 1997. The NNSY incurred
   additional costs to complete the customer orders. As a result, the stabilized rate
   and fixed price variances gains reported in the NNSY FY 1995 Financial and
   Operating Statements were greater than the gains when the customer order was
   completed. Table 2 shows that for the 13 orders, stabilized rate and fixed price
   variances in FY 1995 were overstated by $3,836,114.


                                       27
Appendix C. Revenue Variances Impact on Future Year Financial Statements




     For example, in December 1994, NAVSEA issued customer order no. 73LPS to
     the NNSY for the restoration of radar equipment. The order was amended to
      include additional radar equipment in May 1995, and the fixed price order
     amount was increased to $853,700. On September 30, 1995, the NNSY had
      incurred costs of $346,729 for the order. The NNSY recognized stabilized rate
     and fixed price gains totaling $506,970 for the order at September 30, 1995.
      However, the order was not completed in September 1995. Much of the
     material that the NNSY needed to perform the repair was back-ordered on
     September 30, 1995, and some was not received until July 1996. The order
     was completed and the final bill issued on May 23, 1997, approximately
     2 1 months after the end of FY 1995. When the order was completed, the
     NNSY had incurred actual costs of $813,362. As of May 1997, the stabilized
     rate and fuced price variances for the order totaled a gain of $40,338. The
     actual gain was $40,338 which resulted in an overstatement of $466,632 in the
     NNSY FY 1995 Financial and Operating Statements. Except for our
     judgmental sample of customer orders, we performed no additional verifications
     of financial statements for FY 1996 or beyond.




                                       28
Appendix D. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)
Assistant Secretary of Defense (Reserve Affairs)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Commander, Naval Sea Systems Command
Commander, Norfolk Naval Shipyard
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Cleveland Center
      Director, Defense Finance and Accounting Service Operating Location Norfolk
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                          29
Appendix D. Report Distribution




Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional committees
and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                          30
Part III. Management Comments
Department of the Navy Comments


                            DEPARTMENT          OF THE NAW
                            OFFICE OC THE -ANT     SECRIITARY
                        (FINANCIAL MANAGEMLNT AN0 COM”-ROLLER)
                                    IO00 NAW ?ENTAtON



                                                                 1 2 hw   !998


    MEMORANDUM FOR DEPARTMENT OF DEFENSS ASSISTANT INSPECTOR
                     GENERAL FOR AUDITING

    Subj:   DODIG DRAFT REPORT: ACCOUNTING PROCEDURES AT DEFENSE
            FINANCE AND ACCOUNTING SERVICE OPERATING LOCATION
            NORFOLK AND THE NORFOLK NAVAL SHIPYARD (PROJECT NO.
            7FI-8010)

    Ref:    [a) DODIG   memo of   3 Mar    98

    Encl:   (1) Department of the Navy Comments

         We have reviewed the findings and recommendations forwarded
    by reference (a). Detailed comments are provided by enclosure
    (1).

         My point of contact for this subject is Mr. Larry Braverman,
    FMO-311, at (2021685-6745.




    copy to:
    NAVINSGEN (NIG 42)
    NAVSEASYSCOM (OON3)




                                      32
                                       Department of the Navy Comments




                                                                         Final Report
                                                                          Reference



                       NAVY RESFCNSE To
                DODIGDRAFT'AUDITRePGRTON
   ACCGUNTINGPRGCEDURESAT DEFENSE FINANCEMDACGGUNTING
           SERVICEOPERATINGWCATIGN NORE0LK AND
                 TEIENGREGLKNAVAL SEIPYARD
                   PROJECTNo. 7FI-8010
FindingA:    RevenueRecognitionDuring FY 1995
General   commentson the   draft report:
Page 6, paragraph3, Revenue Recognitionby NNSY, indicated
that the Norfolk Naval Shipy6rdh6d pr6p6red two unrupported
journalvouchers.
Navy response: Supportingdocumentationwas availableand
is maintainedfor these and all other journal vouchers
submittedto the Defense Finance and AccountingService
(DFAS)OperatingLocationNorfolk.

Page 7, paragraph3, NWSEA re6ponuibilitie6.
Navy response. The Departmentof the Navy (DON) generally
agrees with the findingexcept the descriptionof the Naval
Sea Systems Command (NAVSEA)responsibilitieswith respect
to its role in definingaccountingprinciples. The report
states that WAVSEA is responsiblefor ensuring that
accountingprinciplesare clearlydefined and that NAVSEA
activitiesadhere to those principles." While NAVSEA is
responsiblefor ensuringthat NAVSEA activitiesadhere to
existingaccountingprinciples,NAVSEA is not responsible
for definingor clarifyingthose accountingprinciples.

By the Departmentof Defense (DOD)FinancialManagement
RegulationWD 7000.14-R,Volume 1, Chapter 1, the Deputy
Chief FinancialOfficer (CFO) in the Office of the Under
Secretaryof the Defense (Comptroller) is responsiblefor
overseeingand implementingaccountingpolicy and the
Director,DFAS is responsiblefor overseeingand
implementingaccountingoperationswithin the DOD on a
day-to-daybasis. The Heads of the DOD Componentsdirect
and manage financialmanagementactivitiesconsistentwith
financialmanagementpoliciesprescribedby the CFO, DOD,
and other policiesprescribedby the Heads of the WD
Components.


                                           Enclosure (11




                           33
Department   of the Navy Comments




             The foreword of the DoD Financial Management Regulation DOD
             7300.14-R states that “The Heads of DOD Components shall not
             issue supplementary directives/regulations without the prior
             written approval of the Office of the Under Secretary of
             Defense (Comptroller) .”

             Beoamrnendation A.l. : Ue lQcamaend that the Coam~&~,           Navel
             Sea By8tssr3 Ccnuaand inve8tigete the improper mtion              of
             rovenue and take a.ppropriato disciplinaq    action, if
             warranted.

             Navy response to Recommendation A.l.:     Concur.     The Naval
             Sea Systems Command’s Office of the Inspector       General will
             conduct an investigation    and recommend disciplinary    action,
             where appropriate.     The estimated completion date is
             31 December 1998.

             Finding   B:   Method of Revenue Recognition.

             Becomuuandation B . 1: We mnd         that the Cammandar, Naval
             Sea Byeta   Cormund, eetablish     procedure8 to:

                  a. En8uz-eNorfolk Naval Shipyard'8 application of
             revenue recognition method8 are con8i8tent with tho8e used
             by other Naval 8hiprd8.

             Navy response to Recommendation B.1.a.:      Concur.  The DON
             agrees that revenue recognition   procedures should be
             consistent   within the Naval Shipyard Activity   Group.   The
             Naval Shipyard Activity   Group uses the percentage of
             completion method for scheduled availability     work and
             modified percentage of completion method for miscellaneous
             work.    Further, NAVSEAhas discontinued   the income billing
             method described in the report.

             At the time of the audit, Naval Shipyards used the
             percentage of completion method only on large shipwork
             customer orders (scheduled availability     work regardless   of
             value or duration).   For miscellaneous    work (high volume,
             low dollar value, non-shipwork orders),     revenue was
             recognized using the completed order method or the income
             billing   method. As the report describes,    the income billing
             method did not recognize  gains or losses until the order was
             completed.


                                         2                Enclosure   t 1)




                                         34
                                        Department of the Navy Comments




During second quarter Fiscal Year 1998, NAVSEA completed
actions to revise the financialapplicationof the Shipyard
Management InformationSystem (SYMIS). The revision
automatesthe use of a "modifiedpercentageof completion"
method for miscellaneouswork, replacingthe income billing
or completedorder methods. The modifiedpercentageof
completionmethod reflectsbilled income [revenue)and
incurred costs (expenses)monthly throughoutthe execution
of the order. Associatedgains or losses are reflected in
the operating results for that monthly accountingperiod.

This conformswith generallyacceptedaccountingprinciples,
and Office of Managementand Budget (CM91Statementof
Federal FinancialAccountingStandards (SFFAS)Number 7,
which says that when services are providedto another
Governmententity, revenue should be recognizedwhen the
services are performed.

Each Shipyard is now using the same editionof the SYMIS
financialapplication,ensuring that consistentrevenue
recognitionprocedureswill be applieduniformlywithin the
activity group. NAVSEAwill issue operational guidance to
the Naval Shipyards by 15 May 1998 to ensure a complete
understanding   of the Naval Shipyard Activity     Group revenue
recognition   procedures.    These procedures are based on the
accounting principles     in DoD 7000.14-R.   Also, NAVSEAwill
review revenue recognition     procedures in future individual
Shipyard CommandPerformance Reviews conducted twice
annual 1y .

Recmtend8tion   B.l.:

     b. Ensure th8t the loounting operation6 of the
Norfolk Nmf81 shigylrd,88d other lctitities th8t constitute
the Depot Mainlmmnce Bu8ine88Ax88 of the Navy Working
Capital Fund (fonmrly the Defense BusinessDpm8tions
Fund), comply with the mcounting prinoiplerin DOD
7000.14-R,the 'POD Finanoi81M8rmgmmnt Rqul8tion."

Navy response to RecommendationB.1.b.: Concur. Beginning
with the second quarter of Fiscal Year 1998 the procedures
of the Naval Shipyard Activity    Group comply with the revenue
recognition accounting principles    in DoD 7000.14-R.


                           3                Enclosure   (1)
Department   of the Navy Comments




             Consistent with that guidance,      all Naval Shipyards use the
             percentage  of completion method on scheduled availability
             orders and use the aforementioned      modified percentage of
             completion method on miscellaneous      orders.    This approach
             exceeds the minimum requirements outlined in DoD 7000.14-R
             and is more accurate,    since it increases     the amount of work
             included in a percentage of completion method.         This helps
             ensure that the appropriate     cost and revenues are reflected
             in the financial  results    (current period net income/loss)
             for the period in which the work was accomplished.

             As stated in B.1.a. above, NAVSEA will issue operational
             guidance to the Naval Shipyards by 15 May 1998 to ensure
             complete understanding of Naval Shipyard Activity  Group
             revenue recognition  procedures. NAVSEAwill review use of
             these procedures during future shipyard CommandPerformance
             Reviews.

             Finding   C:   Recognizing   Expenses 8nd Willing    Customer Ordere

             RecamPendation C: We maaaroad that the mder,        Norfolk
             Naval Shipyard, establish procedures requiring supervbors
             to review and approve the accrual of contract costs and
             charging naterid to curtour   orders.

             Navy response to Recommendation C: Partially             concur.
             During the period discussed        in the audit report, Norfolk
             Naval Shipyard deviated from the approved Navy guidelines
             for closing     customer orders and charging of excess material
             and outstanding      commitments.    The Shipyard completed initial
             training    for senior managers and current funds
             administrators on 10 April 1998, reiterating            the procedures
             for accrual of contract       costs and charging material to
             customer orders to conform with Navy guidelines.             The
             Shipyard has provided guidance and training that accruals
             may only be established       for the value of the service
             received;    and, will continue to do so as new personnel are
             assigned.     The Shipyard does not agree that supervisors
             should review and approve each accrual.           The funds
             administrators      DrOVide funds authorization      and control   for
             the Shipyard Colander        on each customer order, and have the
             primary responsibility       and authority    to establish   the
             appropriate     accruals.    Supervisors will review proper
             establishment     of accruals    and regularly   oversee funds
             administrators’      performance.

                                           4                Enclosure    (1)




                                           36
Defense Finance and Accounting Service
Comments

             DEFENSE   FINANCE    AND ACCOUNTING            SERVICE
                        1931 JEFFERSON    DAVIS   HIGHWAV
                          ARLINGTON.     VA 2224&SZSt




    MEMORANDUMFOR DEPUTY DIRECTOR,FINANCEAND ACCOUNTING
                    DIRECTORATE,OFFICE OF THE INSPECTORGENERAL,
                    DEPARTMENTOF DEFENSE

    SUBJECT: Audit Report on AccountingProceduresat Defense Finance
             and Accounting ServiceOperatingLocation Norfolk and
             the Norfolk Naval Shipyard (ProjectNo. 7FI-8010)


        Your eemorandumof March 3, 1998, requestedthat the Defense
    Finance and AccountingService respondto the subject report. Our
    commentsare attached.

        My point of contact is Mr. David Hoy on (703) 607-5008.




                                 @&oger W. SC rce
                                  BrigadierGeneral,USA
                                  DeputyDirector

    Attachment:
    As stated
Defense Finance and Accounting Service Comments




             Audit Report on AccountingProceduresat Defense Finance and
            AccountingService OperatingLocationNorfolk and the Norfolk
                        Naval shipyard (ProjectNo. 7FI-80101

          General Comments:

               To put the significanceof the complainant'sconcernsinto
          the proper perspective,DPAS believesthat the report should
          reflectthat the primary basis of the allegationsinvolvedonly
          two transactions,one for a $13.3 million revenue recognition
          issue and another for a $10 millionunresolvedNorfolkNaval
          Shipyard (NNSY)receipt from the InternalRevenue Service (IRS).
          These transactionsoccurredin the 1995 and 1993 time frames.
          The 1993 IRS transactionoccurredprior to OPLOC Norfolkhaving
          accountingresponsibilities  for WNSY.

               While the transactionsin questionoccurred in 1995 and
          1993, the audit was conductedin 1997 which is not stated in the
          report. As a result of the conceptof operationsbetweenDPAS
          and the shipyardsand of trainingconductedin 1997, DPAS does
          analyze the proprietyof shipyardadjustments.

               Regardingpage 26 of the draft, the NWSY and 0PJ.K Norfolk
          did not make an overpaymentof $10 million to the IRS. Therefore,
          the assertionsare only partiallysubstantiated. Furthermore,
          NNSY and OPLOC Norfolk continuedto disclose the $10 million
          payroll withholdingtax issue as a cash reconciliationstatement
          item until January 31, 1997, when a final accountingadjustment
          was processed. The report fails to clarify the nature of the
          transactionas not being an overpaymentand that the transaction
          was carriedas a reconciliationitem.

                           A.2.:
              Recommendation        We recommendthat the Director,
          Defense Financeand AccountingService:

                    a. Train the DFAS OperatingLocationNorfolk staff so
          that they are knowledgeablein shipyardaccountingoperationsand
          DOD accountingprocedures.

               DFAS Response: Concur. A formalplan was developedfor the
          consolidationof the NorfolkNaval Shipyardaccountinginto the
          OPLOC Norfolk. This plan includeda training regimenfor the
          personnelreswnsible for the WorkingCapital Fund (WCPI
          accounting. Trainingwas conductedduring March 1997 which
          includeda computer-driven WCP accountingcourse, classroomwork

                                                               Attachment




                                    38
                   Defense Finance and Accounting      Service Comments




in WCP accountingand training in actual shipyard reportsusing
computer source reports,journalentries, and shipyard financial
statements. Action is complete.

         b. Issue and enforceguidancedefining the
responsibilities
               of the Defense Finance and AccountingService
OperatingLocationNorfolk. The guidanceshould require the
OperatingLocationNorfolk to:

              (1) Obtain supportingdocumentationfor all
journalvouchersentered into the general ledger and obtain an
understandingof the vouchers.

     DFA.9Response: Concur. The DFAS ClevelandCenter will
provide guidanceto accountingpersonnelat the OPLOC Norfolkand
at all other DFAS ClevelandCenter network OPLOCs, requiringthe
OPLOCs to obtain and understandsupportingdocumentationfor all
journal vouchersentered into the WCF.

EstimatedCompletionDate: August 31, 1998.

               (2) Assess the accuracyof accountinginformation
reportedby the organizationsthat the OperatingLocationNorfolk
supports. This should include analysesof financialreports,
researchof significantfluctuationsin account balances,and
reviews of journalvouchers at the end of each accountingperiod.

     DPAS Response: Concur. The DPAS ClevelandCenter will
issue guidancerequiringOPLOC Norfolk to assess the accuracyof
the financialdata it receives from the organizationsit
supports,to obtain supportingdocumentationfor all journal
vouchers entered into the WCP activitygeneral ledger, and to
researchfor the reasons for significantfluctuationsin account
balances.

EstimatedCompletionDate: August 31, 1998.

               (3) Report the resultsof its analyses,and any
deviationsfrom establishedaccountingprinciplesused by the
shipyard,in the certificationletter that accompaniesthe
Norfolk Naval Shipyard'sFinancialand OperatingStatements.

     DPAS Response: Partiallyconcur. The DFAS ClevelandCenter
will issue guidanceto all its networkOPLOCs to footnoteany
deviationfrom an establishedaccountingpolicy and or procedure

                               2




                          39
Defense Finance and Accounting Service Comments




          on the financial statement6 and forward copies to the WCF
          activity, the applicable major command, and the DFAS Cleveland
          Center.

          Estimated Completion Date:   AUgU6t 31, 1998.

               Recommendation B.2.: We recommend that the Director,
          Defense Finance and Accounting Service:

                   a. Direct the Defenee Finance and Accounting Service
         Operating Location Norfolk to review the financial operations of
         the activities it supports to ensure that the accounting
         principle6 used comply with DOD 7000.14-R or have initiated
         action to comply with DOD 7000.14-R.

              DFAS Respon6e: Nonconcur. The DFAS ha6 the responsibility
         to review and analyze the data 6Ubmitted by its cu6tomer6. We
         also have a responsibility to advise our customer6 when we identify
         a practice that is not in compliance with DOD PMR 7000.14-R. Since
         DFAS is not in the chain of command of the customer organization,
         we do not agree it ie appropriate for UB to review the financial
         operations of our customers.

                   b. Disclose deviation6 from DoD 7000.14-R in the notes
         to the financial statement6 or the certification letter
         accompanying the financial 6tatements.

              DFhS Reaponee:  Partially concur. The DPAS Cleveland Center
         will issue guidance to it6 network OPLQCa to footnote any
         deviation from an established accounting policy and or procedure
         on the financial statements and forwardcopies to the WCP
         activity, the applicable major command, and the DFAS Cleveland
         Center. The DFAS Center6 are responsible for disclosure6 on the
         financial statement6 with input from the military departments.

         Estimated Completion Date:    August 31, 1998.




                                       40
Audit Team Members

The Finance and Accounting Directorate, Office of the Assistant Inspector
General for Auditing, DOD produced this report.


F. Jay Lane
Salvatore D. Guli
Richard B. Bird
Joel K. Chaney
Suellen R. Brittingham
Riccardo R. Buglisi
Daniel K. Birnbaum
Richard Kutchey
Susanne B. Allen
